<html>
<title> - [H.A.S.C. No. 115-21] SOCIAL MEDIA POLICIES OF THE MILITARY SERVICES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






 
                             [H.A.S.C. No. 115-21]

             SOCIAL MEDIA POLICIES OF THE MILITARY SERVICES

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 21, 2017


                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
  
  
  
  
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-087                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
  
  
  
  
  
  
  
  
  
  
  
  
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                    MIKE COFFMAN, Colorado, Chairman

WALTER B. JONES, North Carolina      JACKIE SPEIER, California
BRAD R. WENSTRUP, Ohio, Vice Chair   ROBERT A. BRADY, Pennsylvania
STEVE RUSSELL, Oklahoma              NIKI TSONGAS, Massachusetts
DON BACON, Nebraska                  RUBEN GALLEGO, Arizona
MARTHA McSALLY, Arizona              CAROL SHEA-PORTER, New Hampshire
RALPH LEE ABRAHAM, Louisiana         JACKY ROSEN, Nevada
TRENT KELLY, Mississippi
                 Dan Sennott, Professional Staff Member
                Craig Greene, Professional Staff Member
                         Danielle Steitz, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Coffman, Hon. Mike, a Representative from Colorado, Chairman, 
  Subcommittee on Military Personnel.............................     1
Speier, Hon. Jackie, a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2

                               WITNESSES

Brilakis, LtGen Mark A., USMC, Deputy Commandant, Manpower and 
  Reserve Affairs, United States Marine Corps....................     5
Burke, VADM Robert P., USN, Chief of Naval Personnel, United 
  States Navy....................................................     7
Evans, MG Jason T., USA, Director, Military Personnel Management, 
  United States Army.............................................     8
Grosso, Lt Gen Gina M., USAF, Deputy Chief of Staff for Manpower, 
  Personnel and Services, United States Air Force................     5
Kurta, Anthony M., Performing the Duties of Under Secretary of 
  Defense for Personnel and Readiness, Office of the Secretary of 
  Defense........................................................     4

                                APPENDIX

Prepared Statements:

    Brilakis, LtGen Mark A.......................................    37
    Burke, VADM Robert P.........................................    55
    Coffman, Hon. Mike...........................................    31
    Evans, MG Jason T............................................    60
    Grosso, Lt Gen Gina M........................................    45
    Kurta, Anthony M.............................................    32

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Speier...................................................    73

Questions Submitted by Members Post Hearing:

    Mr. Bacon....................................................    80
    Ms. Speier...................................................    77
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
             SOCIAL MEDIA POLICIES OF THE MILITARY SERVICES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Tuesday, March 21, 2017.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Coffman 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE COFFMAN, A REPRESENTATIVE FROM 
     COLORADO, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Coffman. This hearing is now called to order.
    I want to welcome everyone here to this afternoon's 
Military Personnel Subcommittee hearing. The purpose of today's 
hearing is to receive an overview of the military services' 
existing social media policies and to learn what changes are 
being considered to strengthen, disseminate, and enforce these 
policies in light of recent reports of extremely disturbing 
online behavior.
    The rapid emergence of social media as one of the dominant 
means of communication over the past few years has resulted in 
many positive and negative consequences. While social media has 
proven to be an effective and efficient means of instantly 
disseminating important information and views to millions of 
people, it can also serve as an all-too-effective platform for 
bullying and harassment.
    Although social media has the power to connect service 
members and veterans seeking support, these same tools can be 
used to demean and psychologically harm fellow service members. 
While these issues are not limited to the military--and, in 
fact, are rampant throughout civilian society--social media 
harassment and military--in a military setting can be 
particularly damaging because of its effect on service member 
morale and good order and discipline. In short, these actions 
can erode our military readiness.
    In recognition of these challenges, I am aware that each of 
the military services has a social media policy designed to 
govern service members' conduct when using social media. 
However, it is clear from recent cases that these policies have 
not been effective and must be strengthened in order to prevent 
the abhorrent behavior recently reported in conjunction with 
the United States--with the Marines United case.
    I look forward to hearing from our witnesses today about 
the military services' current social media policies and how 
these policies are communicated and trained to the force. I am 
also interested to hear what improvements each of the services 
are considering in light of the recent cases, and how the 
services will ensure that every service member receives 
effective training on appropriate online behavior and bystander 
intervention.
    Finally, I would like to know what resources are available 
for victims of online harassment, including legal and 
behavioral health assistance.
    Before I introduce our panel, let me offer the ranking 
member, Ms. Speier, an opportunity to make her opening remarks.
    [The prepared statement of Mr. Coffman can be found in the 
Appendix on page 31.]

    STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Mr. Chairman, thank you. I have to say, I am 
disappointed in the topic of this hearing. Framing the issue as 
military social media policies, frankly, misses the point. No 
one has ever gone on Facebook, looked at nonconsensually posted 
intimate photos, typed a rape threat, and then stopped and 
said, Oh, I better not make rape threats, that is against the 
military's social media policy.
    All of these services have had social media policies that 
state it is against good order and discipline to make 
disrespectful and derogatory posts. But here we are, exactly 
where we were 4 years ago, when I stood on the House floor and 
condemned the online bullying of U.S. Marine Corps service 
women on a public Facebook page.
    At the time, General Amos, who was then the Commandant of 
the Marines, responded by stating, quote, ``We share your 
indignation,'' unquote, then proceeded in his letter to address 
the online abuse of female marines as an IT [information 
technology] issue.
    Colleagues, it is time to get serious about this. General 
Neller told us just last week, that, quote, ``This is not a 
social media problem, but we have a cultural problem,'' 
unquote. So it is appalling that the committee is treating it 
as such in this hearing.
    Now, it is appalling that we are not hearing from any 
service members or veterans who have been victimized by 
nonconsensual pornography. If this was just about inappropriate 
social media use, well, I don't want to have to be the one to 
have to tell Congress or military leadership about this, but it 
is not hard to find pornography on the internet.
    There is no inherent need to seek out photos of one's 
colleagues to make puerile Facebook posts whether or not they 
are against official social media policy. No, this is about 
service members deliberately trying to degrade, humiliate, and 
threaten fellow service members. They encourage stalking, 
distributed stolen intimate photos, and have reduced their 
comrades to a collection of body parts.
    This cultural rot, which is clearly regressed even before, 
since 2013, harms our troops and our readiness. It is 
abundantly clear that this is not a few bad actors but rather, 
a cancer that has continued to spread and thrive in both the 
enlisted ranks and the officer corps.
    The collateral damage has been the countless women and men 
who have answered the call to serve their country and have been 
betrayed.
    I have requested a hearing with the service chiefs to 
discuss these issues, but here we are talking about IT again 
without a single survivor of nonconsensual pornography giving 
testimony.
    So, today, let's have a discussion about the culture of the 
military and how to enforce these policies and address 
inappropriate and illegal behavior on social media.
    The services bring in almost 200,000 new enlistees every 
year that come from a wide variety of backgrounds. 
Increasingly, those recruits are female. For example, more than 
25 percent of new Navy recruits are women. Female service 
members are not going away. They are here to stay. They have 
every right to serve their country. They have every right to 
have the opportunity to have an experience in the military that 
gives them benefits and the opportunity to extend their 
education.
    As General Neller said last week, the reality is that we 
can't go to war without women anymore. So we need to deal with 
this. What I would like to learn from each of our witnesses 
today is how do you embed your policies into everyday training 
and military life.
    If it is not engrained into daily life and operations of 
the military, then I believe it is not taken seriously. And how 
do you assess and adopt those policies when it is clear they 
are not working?
    More importantly, how do you reinforce that the type of 
behavior we have seen recently is not okay? Do you need to re-
evaluate how you are educating the force and what can Congress 
do to help? We don't need to talk about social media policies. 
We need to talk about how to end this hatred and misogyny.
    Thank you, and I look forward to your testimony.
    Mr. Coffman. Thank you, Ms. Speier.
    I ask unanimous consent that non-subcommittee members be 
allowed to participate in today's hearing after all 
subcommittee members have had an opportunity to ask questions.
    Is there an objection? Seeing none, so ordered.
    Without objection, non-subcommittee members will be 
recognized at the appropriate time for 5 minutes.
    We are joined today by an outstanding panel. We will give 
each witness the opportunity to present his or her testimony 
and each member an opportunity to question the witnesses for 5 
minutes. We would also respectfully remind the witnesses to 
summarize to the greatest extent possible the high points of 
your written testimony in 5 minutes or less. Your written 
comments and statements will be made part of the hearing 
record.
    Let me welcome our panel. Mr. Anthony Kurta, performing the 
duties of Under Secretary of Defense for Personnel and 
Readiness; Lieutenant General Mark Brilakis, Deputy Commandant, 
Manpower and Reserve Affairs; Lieutenant General Gina Grosso, 
Deputy Chief of Staff for Manpower, Personnel, and Services, 
United States Air Force; Vice Admiral William Burke, Chief of 
the Naval Personnel; and Major General Jason Evans, Director of 
Military Personnel Management, United States Army.
    Okay. With that, Mr. Kurta, you may make your opening 
statement.

 STATEMENT OF ANTHONY M. KURTA, PERFORMING THE DUTIES OF UNDER 
SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, OFFICE OF THE 
                      SECRETARY OF DEFENSE

    Mr. Kurta. Mr. Chairman, Ranking Member Speier, 
distinguished members of the subcommittee, thank you for 
inviting us to testify today regarding DOD [Department of 
Defense] policies addressing sexual harassment, hazing, and 
bullying by service members through the use of electronic 
communications to include online social media sites.
    The Department is committing to providing and promoting an 
environment where all service members are treated with dignity 
and respect.
    We are focused on eradicating behaviors that undermine 
military readiness, including unlawful discrimination and 
harassment. Such misconduct is fundamentally at odds with our 
core values and the expectations of the American people. These 
behaviors jeopardize our military mission, weaken trust within 
our ranks, and erode unit cohesion.
    The U.S. military is an institution held in high regard by 
the American people, mostly because we embody high standards 
and values. However, we are not a perfect institution.
    Overwhelmingly, the vast majority of our brave men and 
women serving in uniform do so honorably and bravely. When 
these men and women volunteer to serve in our military, they do 
so knowing the risks involved. However, bullying and sexual 
harassment, cyber or otherwise, by fellow service members 
should never be one of those risks.
    We do our best to uphold our standards and values across 
the world every minute of every day. On occasion, service 
members fail to meet these standards. When that happens, we 
endeavor to the best of our ability to hold each and every one 
accountable for their actions.
    I can tell you that the Secretary of Defense is investing a 
significant amount of his personal time to this issue, 
providing his vision and direction directly to the service 
secretaries and the Department's most senior uniformed leaders 
and listening to those most involved in setting and upholding 
our standards and our values.
    The Secretary believes that our most successful and ready 
warfighting units are those with the best discipline. On the 
battlefield, you must have full trust and confidence in your 
teammates. That is not possible when you do not treat them with 
dignity and respect.
    We have structures in place to address this issue with a 
combination of leadership, because we treat this as a 
leadership issue, education, and training, needed updates to 
our policies, and the flexibilities that the UCMJ [Uniform Code 
of Military Justice] affords us. As we continue to address 
social media activities and review our policies, we will, of 
course, work with the Congress on any issues or challenges that 
we identify.
    Mr. Chairman, members of this subcommittee, thank you for 
the opportunity to speak with you today. It is an honor to 
serve our military members, and I look forward to your 
questions.
    [The prepared statement of Mr. Kurta can be found in the 
Appendix on page 32.]
    Mr. Coffman. Thank you, Mr. Kurta.
    Lieutenant General Brilakis, you are now recognized for 5 
minutes.

 STATEMENT OF LTGEN MARK A. BRILAKIS, USMC, DEPUTY COMMANDANT, 
    MANPOWER AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

    General Brilakis. Chairman Coffman, Ranking Member Speier, 
and distinguished members of the subcommittee, I appreciate the 
opportunity to appear before this subcommittee today to provide 
an overview of Marine Corps social media policies. As our 
Commandant testified to last week, we were all disturbed and 
hugely disappointed by recent online conduct by some of our 
marines toward their fellow marines. We take this online 
behavior as an attack on our Marine Corps ethos.
    You have my word that we will hold accountable any behavior 
that has a corrosive effect on the good order and discipline 
within our corps. We are all committed to using all of the 
means within our authority to address this unacceptable 
conduct.
    Our first priority is to take care of those harms by this 
recent online conduct. We continue to encourage individuals to 
come forward, and we stand ready to provide immediate support, 
information, and referral services to those needing assistance.
    Every marine who takes the oath to support and defend our 
Constitution, who puts on the uniform, and who puts their life 
on the line to defend our way of life here and at home is 
provided and has earned the trust and respect of the American 
people. So too should they be given that same trust and respect 
by those of us in uniform.
    Any breach of that trust and respect within the ranks 
cannot be tolerated and must be dealt with with affirmative 
steps to support those individuals harmed by these actions with 
clarity to ensure that all marines act with honor and with 
accountability for those who fail to live up to our standards 
of conduct. We will be immediate, decisive, unceasing in fixing 
this problem and defeating this attack on our core values.
    Thank you for the opportunity to present at today's 
hearing.
    [The prepared statement of General Brilakis can be found in 
the Appendix on page 37.]
    Mr. Coffman. Thank you for your testimony.
    Lieutenant General Grosso, you are now recognized for 5 
minutes.

STATEMENT OF LT GEN GINA M. GROSSO, USAF, DEPUTY CHIEF OF STAFF 
 FOR MANPOWER, PERSONNEL AND SERVICES, UNITED STATES AIR FORCE

    General Grosso. Chairman Coffman, Ranking Member Speier, 
and distinguished members of this subcommittee, thank you for 
the opportunity to discuss recent events effecting our airmen 
and their families.
    Let me be clear: cyber bullying, hazing, and sharing 
private images of our airmen is inconsistent with the Air 
Force's core values and our culture of dignity and respect.
    While the tools of modern warfare may change, the 
importance of trust never will. Trust is essential to victory 
on the battlefield, and when we violate trust on social media, 
we break down the fabric of what it means to be an airman. It 
also degrades the trust between the Air Force and the American 
people we serve.
    For a number of years, the Air Force has worked to improve 
how we build culture and instill an understanding of expected 
behaviors in our airmen. We started in 2012 by publishing Air 
Force Instruction 1-1, Air Force Standards. It was further 
updated in 2014 to clarify, among other things, the social 
media section of the instruction. We went one step further in 
2015 and in a time of diminishing resources when we stood up 
the Profession of Arms Center of Excellence, affectionately 
known as PACE. PACE is dedicated to providing tools and 
training materials designed to help commanders, supervisors, 
and airmen understand and embrace our core values, our 
standards, and our expectations for all airmen.
    In the specific area of social media, we have training 
modules in the curriculum of all of our accession sources, 
officer and enlisted, to include scenario-based training and 
basic military training that covers social media use. We also 
cover social media use in all our professional military 
education courses from Airman Leadership School through Air War 
College. We have incorporated social media policies into a 
variety of generic and functionally specific Air Force 
instructions that discuss professional and unprofessional 
relationships as well as the proper use of social media in Air 
Force communications.
    In parallel, our performance evaluations system includes a 
requirement to evaluate and comment on an airman's adherence to 
treating other airmen with dignity and respect as well as an 
airman's responsibility to positively contribute to a healthy 
organizational climate.
    While these various efforts have been ongoing, developing 
and improving our Air Force culture is a continuous journey 
whereby we monitor, adjust, and evolve. Unfortunately, these 
recent social media events provide us another lens to view 
areas where we can improve and better scaffold our training, 
education, and policy efforts.
    From an accountability perspective, we condemn these 
inappropriate acts. The Air Force Office of Special 
Investigations is investigating allegations regarding 
information and inappropriate photographs of airmen posted on 
websites without their prior consent. Airmen whose images were 
posted without consent have a number of resources available to 
them.
    Regardless if it is an airman who is deployed or at home 
station, they can seek help from their unit commanders, first 
sergeants, and supervisors. They are also encouraged to seek 
help directly from a variety of resources to include chaplains, 
military family life consultants, mental health professionals, 
airman and family readiness centers, master resiliency 
trainers, the Inspector General security forces, the local 
judge advocate, equal opportunity, our Office of Special 
Investigations, our victim advocates, special victims counsel, 
and sexual assault response coordinators, all who provide care 
and serve a bridge to other specialties. There are also online 
resources available through Military OneSource and the 
Department of Defense.
    We are currently assessing all legal and administrative 
tools at our disposal to attack this problem and are 
considering additional authorities we need as a service. Once 
our review is complete, we will not hesitate to ask for your 
assistance in providing additional tools as necessary.
    If the past two decades have taught us anything, it is that 
the demand for airspace and cyber power is growing. In the 
words of our chief of staff, ``From our newest airman basic to 
the chief of staff, we are all accountable for meeting ethical 
and performance standards in our actions.''
    We should live our core values every day on and off duty. 
We must continuously conduct ourselves in a manner that brings 
credit to our Nation and each other. Service in our Air Force 
is a higher calling, and we carry this legacy forward for 
future generations of airmen.
    Thank you for your time today, and I look forward to your 
questions.
    [The prepared statement of General Grosso can be found in 
the Appendix on page 45.]
    Mr. Coffman. Lieutenant General Grosso, thank you so much 
for your testimony.
    Vice Admiral Burke, you are now recognized for 5 minutes.

    STATEMENT OF VADM ROBERT P. BURKE, USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Burke. Thank you Chairman Coffman, Ranking Member 
Speier, and distinguished members of this committee for this 
opportunity to discuss recent events.
    The military has felt the sting of disappointment from 
multiple reports of unprofessional and totally inappropriate 
behavior by some of our service members.
    Despite repeated efforts to end harassment and cyber 
bullying in our ranks, this intolerable behavior still exists. 
There is no room in our Navy for this toxic behavior, and we 
are aggressively going after it. It makes us weaker. It erodes 
trust within our team, and it cedes advantage to the enemy. We 
are committed to eradicating this behavior and this mindset 
from our force. The United States Navy is a professional force, 
and the American people expect us to maintain high standards. 
This type of behavior is not who we are. We expect better of 
ourselves.
    The bad actors we have discovered have found a new home, 
underground. We will not tolerate their cowardice and the dark 
shadows of the internet. We will be relentless in exposing 
these perceived sanctuaries and reinforcing our expectation of 
sailors' conduct whether in uniform, at home, or online.
    To get after this, the Navy immediately stood up a senior 
leader working group to attack this from the top down. This is 
not a one-and-done review, but rather, a comprehensive strategy 
and plan that underpins our efforts. In addition to helping any 
sailor who may be impacted by this sort of behavior, we are 
going after this in several ways, but the main points are, 
first, to go after character.
    This is not how we treat our team members. This is an issue 
of both leadership and courage. Our Chief of Naval Operations, 
Admiral John Richardson, directed force-wide discussions on 
expectations for online conduct emphasizing that there are no 
bystanders, even in cyberspace. As sailors, our conduct at 
work, at home, or online must exemplify the Navy's core values 
of honor, courage, and commitment at all times. And when we see 
something wrong, no team member should look the other way. 
These discussions are being led by our small team leaders, who 
are best positioned to influence both the workplace environment 
and off-duty conduct.
    We are emphasizing this element of character and the idea 
of no bystander into the Navy's leader development framework 
and into our broader sexual harassment and sexual assault 
campaign plan.
    Next, the online content. The Navy Criminal Investigative 
Service continues to investigate misbehavior online and is 
working with social media companies to curb this activity.
    And then, accountability. We are reviewing the Uniform Code 
of Military Justice and Navy policy governing mandatory 
administrative separation to ensure that they are adequate.
    Sailors who are involved in inappropriate online behavior 
and lose the trust and confidence of the commanding officers 
will be held accountable by a full range of criminal and 
administrative actions.
    We have provided commanding officers and their teams the 
toolkit for this issue, which includes the UCMJ guidance, an 
updated online conduct guide, and a social media handbook. And 
we are encouraging anyone with direct knowledge of explicit 
photos taken without consent or knowledge to contact the Naval 
Criminal Investigative Service via multiple avenues.
    In closing, we cannot allow ourselves to be tainted by 
those who do not share our values. And while we have made 
progress, there is still much work to be done.
    Navy leaders, from the flag level down to the deck plates, 
own this problem. As a team, we will solve it.
    Thank you, and I look forward to your questions.
    [The prepared statement of Admiral Burke can be found in 
the Appendix on page 55.]
    Mr. Coffman. Thank you, Vice Admiral Burke.
    Major General Evans, you are now recognized for 5 minutes.

    STATEMENT OF MG JASON T. EVANS, USA, DIRECTOR, MILITARY 
            PERSONNEL MANAGEMENT, UNITED STATES ARMY

    General Evans. Chairman Coffman, Ranking Member Speier, 
distinguished members of the committee, thank you for the 
opportunity to appear before you on behalf of America's Army.
    The Army is a value-based organization comprised of a team 
of professionals--soldiers and Army civilians. Harassment, 
bullying, hazing, stalking, discrimination, retaliation, and 
any type of misconduct that undermines the dignity and respect 
will not be tolerated, and those found in violation will be 
held accountable.
    The Army has worked diligently to develop a holistic 
continuum for professional conduct in all aspects of soldiers' 
and Army civilians' lives. The Army has implemented our online 
conduct policies throughout every level of training and 
military education so that every soldier understands how to 
treat others with dignity and respect.
    Army policy states that hazing, bullying, and other 
behaviors that undermine dignity and respect are punitive in 
nature. These actions are fundamentally in opposition to the 
Army values and are prohibited behaviors. Our Army-wide 
guidance published in 2015 also makes clear that this 
prohibition applies at all times and extends to all forms of 
virtual and electronic media. Commanders and supervisors at all 
levels are responsible for enforcing this prohibition. They are 
required to conduct annual hazing and bullying training 
including online conduct, publish and post written command 
policy statements on the treatment of persons, and take 
appropriate actions in response to alleged violations.
    In 2015, then-Chief of Staff of the Army General Odierno 
established a special initiatives team to address online 
harassment via social media. And to address the dilemma of 
prevention and response to unprofessional behavior online, the 
special initiatives team coordinated across the Army outlined 
three lines of efforts to achieve the goal of curbing 
unprofessional online behavior by soldiers.
    First, by updating existing policies and regulations, 
updating training materials and infusing training base with the 
information and best practices, and sharing information 
regarding responsible online conduct.
    The Army developed online conduct discussion points and 
vignettes in October of 2015. These discussion points and 
vignettes have been incorporated into institutional, command, 
and unit training packages for equal opportunity, equal 
employment opportunity, treatment of persons, sexual 
harassment/assault response and prevention, and cyber 
awareness, among others.
    In addition to updated policy, Army Public Affairs 
developed a strategic messaging campaign to raise awareness of 
online conduct and the consequences of misconduct and published 
a social media handbook that includes an expanded discussion of 
online responsibilities and best practices section on 
protecting oneself from and reporting online misconduct.
    The Army developed methods to track and report online 
misconduct through sexual harassment assault response 
prevention reporting and law enforcement agencies.
    Finally, Not in My Squad program, developed by the Center 
for the Army Profession and Ethics, was designed to help 
soldiers assess the state of mutual trust and cohesion within 
their squads. The grassroots nature of the interactive program 
helps junior leaders to gain situational understanding and 
inspire ethical and professional behavior. The Not in My Squad 
campaign facilitates leader involvement and accountability and 
aids in the creation of a professional and ethical culture 
among members of the Army team.
    As our chief of staff, General Milley, recently remarked on 
this topic, we expect leaders and influencers, from squad level 
up, to talk about and demonstrate what respect looks like at 
work, at home, and online.
    In closing, the Army recognizes the potential dangers 
concerning social media and is proactively working to ensure 
our soldiers are aware of the standards of conduct and 
policies, training, and programs.
    We will continue to enforce standards and imbue soldiers 
and Army civilians with Army values and emphasize professional 
behavior in all that we do.
    Again, thank you for the opportunity, and I look forward to 
your questions.
    [The prepared statement of General Evans can be found in 
the Appendix on page 60.]
    Mr. Coffman. Major General Evans, thank you so much for 
your testimony.
    Mr. Kurta, each of the services has a social media policy, 
but they differ in substance and form. In addition, the 
proponent for the social media policy differs from service to 
service. Is there a benefit to standardizing across the 
services these policies as well as the proponent for the 
policies?
    Mr. Kurta. Sir, thank you for the question, and I would say 
very briefly, no. I don't believe there is.
    And I say that, because the Secretary has been very clear 
that the cultures of the individual services are great 
warfighting readiness advantages. And when we make policy, it 
has to be broad enough that the services within their cultures 
can do what is right. And so what is right and best for, you 
know, an Army soldier in a brigade combat team in Italy is not 
the same for that sailor that is out on the aircraft carrier, 
you know, somewhere in the Middle East.
    So our policies have to be--give the intent of the 
Secretary to the service secretaries and the service chiefs and 
be broad enough, directive enough so that they know the intent 
of what is expected, and then within their cultures devise the 
best solution that works best for their service.
    Mr. Coffman. I am going to ask all of you the same 
question. I will start with Lieutenant General Brilakis, United 
States Marine Corps. How are you integrating social media 
policies into training on other topics such as sexual assault 
prevention or ethics training?
    General Brilakis. Sure. Thanks for the question. With 
respect to our social media policy, our first policy was 
written in 2010. It was the first of its kind. It was 
reinforced in a Marine administrative message in 2013, and last 
week, we reissued a new policy to cover the issues with social 
media to make marines mindful that they have responsibilities 
in the social space, to remind marines that they are our best 
messenger of the Marine Corps if they operate within the 
guidelines of the social media policy, and then to remind them 
that missed--not adhering to that policy has consequences 
through the various elements of the Uniform Code of Military 
Justice.
    Lastly, what it does is it talks to marines who may be the 
victims of misbehavior on social media, those remedies, those 
individuals they can reach out to, that support this throughout 
the Marine Corps, whether it is our sexual assault response 
coordinators, our unit victims advocates, the victims' legal 
counsel, the equal opportunity representatives and units, the 
legal counsel of the NCIS [Naval Criminal Investigative 
Service], et cetera, all wrapped up into that particular 
policy.
    What we are running right now, what the Commandant has done 
is directed us to form a task force, very high-level task 
force, that is chaired by the Assistant Commandant of the 
Marine Corps. It has been meeting for the last 2 weeks. I sat 
through a 2\1/2\-hour meeting of the executive counsel of this 
task force today. There's been a lot of discussion. There is 
some progress. There is some tangible actions that are going 
on.
    You mentioned education and training on the social media 
policy, and that is important. It is critical. Part of what is 
being looked at at this task force are not only current actions 
that can be taken. And you are well aware of Commandant Neller 
immediately getting out and publishing a video message to the 
entire force, telling them that this behavior is unacceptable, 
this behavior is antithetical to the ethos of marines. Those 
actions that have updated this policy are all products of that 
task force.
    The task force is also looking in terms of long-range 
future operations, if you will, with respect to the social 
media task force. Training and education is fundamental to 
that. A review of the programs and instructions and all of our 
formal courses will be part of that process to ensure that the 
training that we do is consistent, repetitive, and runs through 
the marine life service.
    Mr. Coffman. Okay. So my time is limited, so I will just 
leave it with the Marine Corps right now, since the problem 
seems to be centered on the Marine Corps, and that is that 
right now, though, is--I realize you are reviewing all of this, 
but right now, is there a social media training requirement in 
terms of this particular issue at boot camp and then on an 
annual training requirement for every marine?
    General Brilakis. I will be honest with you, sir, I can't 
tell you whether there is a training requirement as it existed 
prior to 2 weeks ago.
    Mr. Coffman. Okay.
    General Brilakis. What I will tell you, what I will say is 
the Commandant has already been on a trip down to Camp Lejeune 
to pass a message that was put out in his video message and 
also in the MARADMIN [Marine administrative message]. He just 
signed off on a white letter that has gone out to all 
commanders. Every marine, to include myself, will sign a formal 
counseling on the tenets of that policy and our expectations 
that they adhere to that policy.
    Mr. Coffman. Thank you. Ranking Member Speier, you are now 
recognized for 5 minutes.
    Ms. Speier. Mr. Kurta, I was somewhat astonished by your 
comment, frankly. To think that we need separate social media 
policies from one service to another makes no sense.
    It would seem to me that if you take a picture without the 
consent of someone, and then post it on the internet with their 
name, rank, and serial number, whether you are a marine, or a 
sailor, or any one of the other services, you are violating the 
law. So why wouldn't we have a social media policy that was 
clear throughout all of the services?
    Mr. Kurta. Well, ma'am, I hope I didn't leave the 
impression that we think there should be no OSD [Office of the 
Secretary of Defense] policy on social media.
    Ms. Speier. No. You know what, you don't even need to 
answer it. I think that you are wrong. I think that this goes 
to just fundamental values. It goes to fundamental culture.
    Mr. Kurta. Yes.
    Ms. Speier. And I just want to make that statement. I just 
don't think it makes sense.
    I just want to share with you a couple of, what I received 
back in 2013. ``Don't wrap it and tap it, tape her and rape 
her.'' This is the Marines, now.
    Here is another one: ``Listen up, bitches. I am your worst 
nightmare. You piss us off, I won't give an F who you are, and 
we will rape your world. And I am not talking about the come-
here-and-smell-this kind of rape.'' I won't read the rest of 
this.
    Are you getting the message?
    ``I raped pregnant women once. Best threesome forever.''
    I just don't even want to look at any more of these.
    It was bad in 2013. It is bad in 2017. Nothing has changed. 
Of the 30,000 persons that are on that Marines United website, 
730 of them are Active Duty, and 150 of them are Reserves. So 
we have a problem here that just talking about the policy is 
just not going to cut it.
    I guess I want to ask the other services. Let's start with 
you, General Grosso. Have you gone now and--since the Marines 
United dust-up, have you gone and looked to see if there were 
sites with Air Force members represented?
    General Grosso. Yes, ma'am. Our Office of Air Force and 
Special Investigations----
    Ms. Speier. Can you turn it on, please.
    General Grosso. Yes, ma'am.
    Our Office of Air Force and Special Investigations has 
looked, and they have looked at over 30 different sites, and 
we, to date, have not found a site specifically dedicated to 
denigrating airmen, female airmen.
    Ms. Speier. Okay. How about you Admiral Burke?
    Admiral Burke. Yes, ma'am. We worked with our Naval 
Criminal Investigative Service. There are no similar websites 
that are directly affiliated with the Navy that have been 
identified to date. There are, literally, millions of websites 
affiliated and that are dot-com, for-profit websites that have, 
you know, words like ``topless sailor'' and things like that in 
their title, with all sorts of postings and things of that 
nature on them. Many of them not official photographs. So those 
are the sorts of stuff that we are pouring through right now.
    Ms. Speier. General Evans.
    General Evans. Ma'am, I am aware of an effort, a 
multiservice investigation level to look at a site that was 
potentially linked to the Marines United site.
    Ms. Speier. That was an Army site?
    General Evans. No, ma'am, that had multiple service members 
on the site. A site called Tumblr, and I am aware of an ongoing 
multiservice investigation with that.
    Ms. Speier. But the rest of you weren't aware of that?
    Okay. See, I hate--I think you should all be aware of it. 
You should all be looking at it.
    Let me ask you this: UCMJ article 120 only applies to those 
who take pictures, intimate pictures, of someone without their 
consent. There is nothing that refers to it being distributed 
without consent, because many pictures are sometimes taken and 
offered for in consent because your intimate partner is 
deployed, and you are sending them a picture. You then break 
up, and then your former intimate partner posts it.
    We have introduced legislation last week that would amend 
UCMJ to include the prohibition of nonconsensual sharing of 
explicit photographs. I would like to ask each of the services 
if you support the legislation?
    Mr. Kurta. Ma'am, if I could take that one. We cannot 
comment on pending legislation; however, I would say as we all 
look at this problem and decide how best to respond to it, both 
at a department level and the individual service level, we are 
open to all good ideas and partnering with the Congress for 
anything that gives us better tools for both awareness and 
accountability, but we cannot comment on pending legislation.
    Ms. Speier. How about the services? Can they comment 
independent of you?
    Mr. Kurta. No, ma'am, that is--I am sorry. That is a 
department policy.
    Ms. Speier. All right. I yield back.
    Mr. Coffman. Thank you, Ranking Member Speier.
    Mr. Jones, you are now recognized for 5 minutes.
    Mr. Jones. Mr. Chairman, thank you very much. And I 
associate with many of the comments that Ms. Speier has made. 
And I have been on this committee for 22 years and served with 
you and others for a long period of time, and I can't help but 
think the pressure that is on our society because of the new 
technology, the threat to our world because of cyberspace 
issues that we all deal with, particularly on this committee, 
classified briefings and everything.
    And here we are dealing with the societal problems of the 
internet and how it impacts our young people, many who go into 
the military, all branches--thank you all, again, for your 
service and being here today.
    You know, I represent the Third District of North Carolina, 
which is the home of Camp Lejeune Marine Base and Cherry Point 
Marine Air Station, and obviously, this has been a huge issue 
for our Nation, but also for the district I represent--not just 
those in uniform, the Marine Corps primarily, but for the 
citizens who really know that this problem is actually an issue 
that has grown and festered in our society.
    And, you know, when you see children that are 5, 6, and 7 
getting iPhones for Christmas, I think you all have an 
impossible responsibility to get to the genesis of what has 
happened in the different services. Not just one, even though 
this is primarily the Marine Corps, but this, I think--I am 
afraid I am wrong--I hope I am wrong, but I am afraid I might 
be right, this is going to be a battle, if I can put it that 
way, for the different services--and, again, we talk primarily 
about the Marine Corps today--that we have not seen before. And 
it is not going to change. It is going to be with us when I am 
dead and gone and many of you young people sitting out there 
being old men like I am today.
    But I want to ask you, with all you are trying to do--and I 
know that General Mattis, now Secretary of Defense, and also 
General Neller the Commandant, who I have great respect for, 
this is a task that is going to be a difficult one because of 
the darkness of the world of the internet, so to speak.
    Do you feel at this beginning stage of this investigation 
that you have all the resources that you need to try to get to 
the genesis of this problem?
    Mr. Kurta. Sir, first, thank you for the question. And 
while we, you know, acknowledge that this is a problem that is 
also in society, we don't hide behind that.
    Mr. Jones. I understand.
    Mr. Kurta. We hold ourselves to higher values and standards 
than is in society. You know, I am also a little bit hopeful, 
because the Department has taken on great cultural issues in 
the past and been successful, whether it is integration of the 
races, whether it is the rampant drug abuse we used to see in 
the 1970s and 1980s, whether it is the alcohol problems that we 
saw, again, in the 1970s and 1980s, we have taken on some of 
those large issues and had cultural issues and had great 
success over time when we applied leadership and the element of 
time.
    Now, some of those things took, you know, many decades to 
solve and to change the culture in an organization of 2 
million-plus people, it does take time and we realize it is 
limited in this case. So I am hopeful. And I think as all of us 
here and the rest of the leadership in the Department get 
further into this, we will find out further tools that will be 
helpful to us. We don't have a list of those today, but we 
certainly will be talking further with you and the rest of the 
Congress and whoever else we need for access to certain tools.
    General Brilakis. Thank you, Tony.
    Congressman Jones, thank you. There's a lot of work to do. 
This task force that the Commandant has stood up is working 
across what is happening today, what we need to do for the 
future, current policies, a review of all the policies that 
affect this.
    Most importantly, dealing with those individuals who have 
been harmed by this activity, this abhorrent activity. And so 
we are learning as we are going.
    The commitment of the Commandant has been clear. It has 
been strong. He wants action soon, and we are working to give 
him a series of executable recommendations upon which he can 
act.
    Mr. Jones. Thank you, Mr. Chair.
    Mr. Coffman. Thank you, Mr. Jones.
    Mr. Brady, you are now recognized for 5 minutes, and then 
we are going to have to recess for a vote.
    Mr. Brady. Thank you, Mr. Chairman. I don't really have any 
questions. I probably have an observation.
    Lieutenant General Brilakis, online humiliation, 
denigration, posting of images you have on your statement.
    Lieutenant Grosso, vile--I mean, private images you have 
sharing posted on your statement, inappropriate behavior, 
humility, harassment, and bullying.
    Mr. Kurta, you have sexual harassment, hazing, and 
bullying, but I don't see any images.
    And Vice Admiral Burke, you have inappropriate behavior, 
harassment, bullying but no images.
    And the same with General Evans, harassment, bullying, 
hazing, stalking, retaliation but no images. I really was under 
the impression and am really kind of concerned about images, 
because that is the new thing now with the internet and people 
posting images, and God knows how far it goes or where it goes. 
I was wondering why the three of you don't have images?
    Mr. Kurta. Well, Congressman Brady, I would just say this: 
Whether it is the use of images, whether it is the use of 
social online media, those are tools by which people are 
denigrating their fellow service members, through hazing, 
bullying, sexual harassment. There's a number of different ways 
to characterize it.
    So we were trying to represent the fundamental behavior, 
which is bullying, sexual harassment, hazing, in this case. 
There's a variety of tools that people use to perpetrate that 
type of behavior, but we have to get to the fundamental 
behavior.
    Mr. Brady. Well, I just wanted to hear you say images.
    Mr. Kurta. Images, yes, sir. Absolutely, that is definitely 
one of the tools that is being used. Yes, sir.
    Mr. Brady. Vice Admiral Burke.
    Admiral Burke. Yes, sir. The images and the social media 
and the internet are just the new--the environment we had not 
been thinking about as much as we should have been.
    Mr. Brady. Major General.
    General Evans. Yes, sir. Images in terms of what we defined 
in the online additional guidance and online conduct would 
include any harm to do to anybody via virtual electronic, which 
would include images, sir.
    Mr. Brady. Well, I'm glad to hear that, because all of 
these other things aren't really, like, online: Any 
inappropriate behavior, bullying, you know, harassment, that is 
not necessarily online. But the images are what we are talking 
about, which are online and which is what everybody, kind of, 
like, looks at. Thank you.
    Thank you, Mr. Chairman.
    Mr. Coffman. Would the gentleman yield?
    Mr. Russell. Thank you.
    I would, just for clarification--and I think we are all in 
very much agreement on this, not just with the panel but also 
here on the committee on these issues.
    But I would like to point out that in section 920 of 
article 120c, that images and privacy and many of these things 
are addressed in the Uniform Code of Military Justice. There is 
a little bit of confusion about what is in the code.
    Section 2: ``knowingly photographs, videotapes, films, or 
records by any means the private area of another person, 
without that other person's consent and under circumstances in 
which that other person has a reasonable expectation of 
privacy''.
    And then it defines this, reasonable expectation means 
under ``circumstances in which a reasonable person would 
believe that he or she could disrobe in privacy, without being 
concerned that an image of a private area of a person was being 
captured''.
    Broadcast means--the term to broadcast means ``to 
electronically transmit a visual image with the intent that it 
be viewed by a person or persons.''
    So the uniform code very much does address these issues. 
And what I would like to point out, this is really something 
that demands accountability rather than additional policy or 
code. I would be interested in your thoughts on that, Mr. 
Kurta, and whoever else would like to comment.
    Do you see this as an accountability issue, or do you see 
that the uniform code doesn't adequately address it when it 
appears that in the language it already does? Sir?
    Ms. Speier. Would the gentleman yield before asking the 
question? The problem is, sometimes pictures are taken with 
consent, and then subsequently----
    Mr. Russell. And if I may, to the ranking member, it does 
address on the privacy: Without being concerned that an image 
in terms of that. So it specifically addresses that it was not 
with consent. That they are actually assuming that they were in 
complete privacy.
    And so I point that out, because in section 920, article 
120c, the language seems to be pretty well defined to address a 
lot of the electronic digital imagery aspects of privacy.
    I would be curious to know, is this an accountability 
issue, or is this something that the uniform code does not 
adequately cover?
    Mr. Kurta. Well, sir, thank you for the question. I am just 
saying, you know, the back and forth kind of illustrates how 
complex this problem is.
    Absolutely, it is accountability. We have standards. We 
have values, as I mentioned, you know, in my opening statement, 
and sometimes we find that people don't live up to those values 
and standards. When they don't, we hold them accountable.
    Again, as--we can't talk about an ongoing investigation, 
but as it proceeds, I think we will have a better idea of our 
tools.
    We have policies. I think they're, actually, in many 
respects very clear on hazing, bullying, sexual harassment, the 
use of online media to perpetrate those. So the policy is 
there, and we will see what our tools available for 
accountability----
    Mr. Russell. And if I may point out, sir, it is the uniform 
code. This is something that can put people in prison, that can 
give them a felony conviction. This is something that would 
result in courts-martial, the loss of rank and privileges and 
honorable discharge, any number of things. So it is not just 
policy, it is the legal standard by which everything good order 
and discipline is governed.
    And that is why before we got too confused on what is there 
and what is not, I wanted to point out my understanding under 
the UCMJ is that the language is in there.
    Is it your understanding that it is not, because there's 
been some of that in the questioning today? My understanding is 
that it is there. So now it is a matter of accountability. Is 
that true, or not?
    General Brilakis. No, sir. This is all about 
accountability. This is all about having individuals who have 
betrayed the trust of their fellow service members, holding 
them accountable.
    The Uniform Code of Military Justice has a number of 
articles under which, in certain cases, we can bring these 
things to a prosecution. You have mentioned 120c; 120c is a 
relatively new article, and there is not a lot of experience 
behind it.
    Right now, the NCIS, this is their number one priority. 
They have formed a task force with the other services' 
investigative bodies, and they are working cooperatively to 
determine the facts and uncover the investigatory material that 
we can then turn over to commanders to take out the Uniform 
Code of Military Justice----
    Ms. Shea-Porter. Mr. Chairman, I am not sure who I ask 
this. If I could just interject one second because of what my 
colleague just said, which is so relevant?
    Mr. Coffman. Why don't we----
    Ms. Shea-Porter. I won't be able to return, unfortunately. 
It is going to be very quick.
    I am actually holding your enlistment document, and it says 
right here, subject to separation at the end of my enlistment: 
If my behavior fails to meet acceptable military standards I 
may be discharged and given a certificate for less than 
honorable service.
    I don't know why we have to wait. If you tell them at the 
very beginning, and they sign off saying that their behavior is 
not acceptable, they understand what the parameters of 
acceptable is, and I hope they do, I don't understand why we 
have to, then, pursue many various avenues.
    Do you still have the power to throw them out if it is very 
clear that they can't do this when they sign up and they signed 
on to this document?
    General Brilakis. Yes, ma'am, absolutely, we have the 
authority. But everybody--everybody deserves due process, and 
the Uniform Code of Military Justice requires due process. 
Whether it be through an administrative procedure or military 
justice procedure, there are processes.
    Ms. Shea-Porter. I understand----
    General Brilakis. So the fact----
    Ms. Shea-Porter. I am sorry----
    Mr. Coffman. We are in recess for a vote.
    Ms. Shea-Porter. At the very beginning. They need to know 
and they will be thrown out. Thank you. And I yield back. Thank 
you, Chairman.
    [Recess.]
    Mr. Coffman. This hearing is called back to order.
    I had started a question about training, and so I started 
in with the Marine Corps, and now I want to go to the other 
services, and the question is this: How are you integrating 
social media policies into training on other topics such as 
sexual assault prevention or ethics training? Lieutenant 
General Grosso, I wonder if you could answer this question, 
please.
    General Grosso. Yes, sir. As I indicated, we have training 
across our continuum of learning, but as we do, we stood up a 
task force as well to do a complete review of our policies and 
our training and our accountability, and that is one of the 
things that we are taking a hard look at. Is the training 
synchronized, is it properly scaffolded, is there other places 
we should put it, and some of the other places we are looking 
at, we do resiliency training, and we thought maybe putting 
some real scenarios in our resiliency training.
    We also do new spouse training, and we start talking to our 
spouses about it through that program and through our key 
spouse program and in some of our predeployment training as 
well. We do social media training, but it is really around 
OPSEC [operational security], and there is probably other 
opportunities as we look at our training, our cradle-to-grave 
training where we can put that in.
    And we also have a commander's call of the week, and we 
have already put that module out for the commander's call of 
the week, but there are, I am sure, other places that we will 
be able to embed this training in.
    Mr. Coffman. Just real quick. In terms of your sexual--in 
terms of--let's say you are going to integrate this in with 
your sexual assault training, it would probably fit there, 
sexual harassment, sexual assault training. Tell me what you do 
in--so I assume you have training requirements in your basic 
training?
    General Grosso. Yes, sir, we do.
    Mr. Coffman. And then do you have them on an annual basis 
that are in fact required, that are noted in the personnel 
file?
    General Grosso. They are there. We don't necessarily put 
them in the personnel file.
    Mr. Coffman. Okay.
    General Grosso. But we track them, and there is annual 
training requirements for sexual assault and sexual harassment.
    Mr. Coffman. Okay. Vice Admiral Burke.
    Admiral Burke. Yes, sir, we have a full spectrum of 
training that is aimed at sexual harassment and sexual assault 
prevention that includes a focus on social media. So at Recruit 
Training Command for our enlisted folks, we have a course that 
is called ``Life Skills,'' and it is a full-spectrum course 
that teaches our sailors how to intervene when they see other 
sailors heading down paths of destructive behaviors.
    You know, by this point in Recruit Training Command, they 
should have had Navy core values instilled in them, so it 
focuses on how to help other people that are heading down the 
wrong path. But then it focuses on healthy relationships, 
stress management, responsible alcohol use, hazing and 
fraternization, and then a heavy emphasis on sexual assault 
prevention. And this is where we teach folks that it is okay to 
stand up and say--in fact, they have a responsibility to stand 
up and say: That is wrong. I don't accept that type of 
behavior.
    And we also emphasize what right looks like. We take that 
approach on it. And in that core module, we talk a lot about 
social media and acceptable behavior on social media, and we 
also cover OPSEC concerns there, but a lot of social media 
behavior discussion there.
    We have a similar approach at the Naval Academy. There the 
course is called, SHAPE, Sexual Harassment and Assault 
Prevention Education, similar type of coverage there. And then 
when folks get out into the fleet, there is a refresher 
recurring training, that has morphed over the years. Last 
year's version was called, ``Chart the Course,'' and there were 
16 different modules. They were facilitated DVD [digital video 
disc] course modules, and one of----
    Mr. Coffman. Are there annual training requirements?
    Admiral Burke. There are. There is an annual training 
requirement that is on the requirements, and then there is an 
additional facilitated vignette, and the vignette specifically 
was on, you know, a sailor videotaping someone against--without 
their knowledge, and then the decision point and----
    Mr. Coffman. Sure.
    Admiral Burke [continuing]. The discussion point was should 
he email it off or not, and it went from there. So there are--
there are those types of requirements throughout our 
curriculum, yes, sir.
    Mr. Coffman. Thank you. Major Evans, United States Army.
    General Evans. Yes, sir. All training plans and programs of 
instructions at all level of the Army, to include the initial 
military entry of training, to include precommand courses, and 
all professional military education, incorporate online conduct 
training as part of equal opportunity training, sexual 
harassment, assault and response prevention training. 
Thereafter, that training is required on an annual basis to 
conduct the equal opportunity training, the sexual harassment, 
assault and response training, and part of that is online 
conduct is a component of both of those annual trainings.
    In addition to that, commanders are required to publish 
policy letters on both of those and make sure that soldiers 
know how they are supposed to conduct themselves and where they 
can report this kind of training, and the Army Public Affairs 
has published a social media handbook that provides examples of 
policy letters for social media conduct.
    Mr. Coffman. Thank you. Ms. Speier, you are now recognized 
for 5 minutes.
    Ms. Speier. Thank you, Mr. Chairman. I want to go back to 
what our good colleague from Oklahoma talked about before we 
recessed, because you have to read this very carefully. He is 
wrong, and I want to state it for the record.
    First of all, article 120c has been around since 2012. So 
you have had 5 years to use it, and my first question is going 
to be have any of you used 120--article 120c in actually 
enforcing the social media misuse of photographs?
    General Grosso. Ranking Member, yes, ma'am, we have used 
article 120 in holding airmen accountable for this offense.
    Ms. Speier. For these specific--for use of social media 
with consent or without consent?
    General Grosso. It was revenge porn, and it was charged 
along with other things, but it was part of the charge under 
120c.
    Ms. Speier. So revenge porn is normally where it is--it is 
a photograph, an image that is taken of someone with consent 
and then subsequently distributed without consent.
    General Grosso. I can get you more details.
    [The information referred to can be found in the Appendix 
on page 73.]
    Ms. Speier. Okay. So my only point here is how about any of 
you others?
    General Brilakis. Ma'am, I will have to take it for the 
record. I don't have it----
    Ms. Speier. All right. Would you, and then come back to us?
    [The information referred to can be found in the Appendix 
on page 73.]
    Admiral Burke. Ma'am, we had one case of videotaping on a 
submarine and six individuals were court-martialed under 120c.
    Ms. Speier. Without consent?
    Admiral Burke. The video was without consent and it was 
distributed locally without consent.
    Ms. Speier. That is clearly under 120c. General Evans.
    General Evans. Ma'am, I would have to take it for the 
record, but the lawyers have advised me under--for social media 
misconduct, article 92, 120c for nonconsent, consensual sending 
of photos; 133, conduct unbecoming an officer and gentleman; 
134, clause 1, conduct prejudicial to good order and 
discipline; and clause 2, conduct of a nature to bring 
discredit upon the Armed Forces.
    [The information referred to can be found in the Appendix 
on page 74.]
    Ms. Speier. I don't want to beat this horse, but it is very 
clear under 120c that it has to be taken without legal 
justification or lawful authorization. It is taken without 
consent or it is distributed without the other person's consent 
and other circumstances in which the other person has a 
reasonable expectation of privacy.
    So you have to--knowingly broadcasting it or distributing 
such a recording of that person knew or reasonably should have 
known was made under the circumstances listed in paragraphs 1 
or 2, in both cases you have to show that it was originally 
without consent, and in many of these cases, with revenge porn, 
the first image is taken with consent or it is shared with 
consent. It is just the subsequent distribution, so I just 
wanted to make that clear, Mr. Chairman.
    Let me ask you this: How many of you have Facebook pages? 
Mr. Kurta.
    Mr. Kurta. Ma'am, I do not.
    Ms. Speier. General.
    General Brilakis. No, ma'am, I do not.
    General Grosso. Ma'am, I do not.
    Ms. Speier. Admiral Burke.
    Admiral Burke. No, I do not.
    Ms. Speier. General Evans.
    General Evans. Yes, ma'am, I do.
    Ms. Speier. All right. Of all of you, just one of you has a 
Facebook page. I think it would be edifying to you if you all 
had Facebook pages because it might help you understand how it 
is being used and misused.
    General Evans, can you tell me a little bit about your 
experience using Facebook?
    General Evans. Yes, ma'am. I exclusively use it for family 
and close friends, and my experience with it is, you know, I 
have had my Facebook duplicated 12 times with public photos, 
people establishing a Facebook account in my image. I have had 
that happen. But I use mine primarily for family and close 
friends.
    Ms. Speier. Okay. One of the people that testified at the 
briefing suggested that of those who were identified as being 
Active Duty, when they actually went and interviewed them, 
their picture was not the same picture, but they did have their 
name. So there is many ways that you can abuse the system, and 
that is why having the kind of social media hygiene, I think is 
a good way of looking at it, is really very important.
    I know my time has expired, but I would like to ask one 
more question of each of the services.
    I am very troubled that this has not been addressed. I 
think you can understand my frustration. This was first 
identified 4 years ago in the Marines and nothing seems to have 
taken place. If you have 750--if you have 100 Active Duty 
service members who are using social media in a way that is 
degrading and dehumanizing, they shouldn't be in the military.
    So what I would like for you to do for the committee, and 
Mr. Chairman, with your approval, I would like to have each of 
the services report back to the committee in 4 months with the 
specific actions that you have taken in making sure that the 
appropriate education and training is provided to your service 
members that is above and beyond what you have done so far, 
because I think we know that that appears to be insufficient at 
this point in time.
    And then if you would, on a monthly basis, in the Marines, 
in particular, report to us on the disciplinary action that is 
being taken against those who you identify on Marines United.
    Mr. Coffman. We will take those--we will take that question 
for the record.
    Ms. Speier. Mr. Chairman, can I have clarification? Are we 
going to--is there any objection to having them report back to 
us?
    Mr. Coffman. We may have to put it in the National Defense 
Authorization Act.
    Ms. Speier. Why would we have to do that? They are here 
right now. If they are willing to do it.
    Mr. Coffman. Oh, if you are willing to answer the question 
now, if you have the information now, sure, certainly. You want 
them to answer now?
    Ms. Speier. I want to have them answer whether or not they 
will report back to me.
    Mr. Coffman. If I can do this, since we are over, if I can 
go to Representative McSally, and then I will go back to you. 
Ms. McSally, you are recognized for 5 minutes.
    Ms. McSally. Thank you, Mr. Chairman. Thanks everybody. 
Sorry I missed the first part of the hearing. I apologize for 
that.
    Mr. Kurta, good to see you again. Gina, good to see you 
again. Sorry, General Grosso. Thanks for your time and your 
thoughtfulness in trying to grapple with this 21st century 
challenge that we have in social media. But some of the 
discussions we have already had with General Neller both in our 
discussions here and in one-on-one conversations is culture, 
right? And I know you are here to talk about policies, but 
there is also an element of culture in addressing--you know, we 
got to make sure we have the right policies to address bad 
behavior and that we can take administrative or criminal action 
if we need to, and that is important.
    But we also got to make sure--we are not going to be able 
to police 24/7, from my view, what is going on in somebody's 
heart and what they are going to try and choose to do 
anonymously, and trying to use all our resources in the 
military to chase them down and their activity off duty is not 
the best use of our resources, from my view, so we have got to 
inculcate in our troops the desire to have integrity and 
excellence in character and respect and honor 24/7, which I 
know we strive to do and many of us are infuriated and 
disturbed that we are finding individuals are not doing that, 
right?
    My concern, as it relates to scandals like this, is that we 
don't have knee jerk reactions in addressing the culture, with 
new policies and training and PowerPoint briefings and 
everything that we have got to do in order to make sure that we 
are responding to Congress and the media and others, that 
actually in the end inculcates more resentment towards women, 
right? Now we are having to sit through another 5-hour 
training, another PowerPoint. I mean, I have seen this, and 
those of you who have been around awhile, you probably know 
what I am talking about.
    And my concern is, you know, we inculcate this culture from 
the very beginning when we take civilians and we turn them into 
military in basic training, and I still think there is things 
that we all need to be addressing, that we are not inculcating 
any sort of subtle resentment, you know, towards the other 
gender, and from my view, that includes things like integration 
of basic training and women should be cutting their hair, and 
you know, not having any obvious double standards of a 
different experience.
    So I just wanted to sort of share that as a statement that 
as you all are dealing with this current situation and you are 
reviewing training and policies, please keep in mind, when we 
are addressing these deeper cultural issues in training, that 
we don't overdo it in a knee jerk way that actually has the 
exact opposite effect of what we are trying to do.
    If we are inculcating resentment towards our female troops 
from the beginning, then that actually sows the seeds for 
people then having the types of behavior that could come out in 
a variety of different ways, if that makes sense.
    I did want to ask, I know the Marines is setting up a task 
force on this that has been reported. General Brilakis, you are 
on that task force?
    General Brilakis. Yes, ma'am.
    Ms. McSally. Okay. Are the other personnel chiefs 
represented here, are there similar efforts going on in the 
other services, whatever you want to call them, task force 
reviews, whatever, and are each of you represented on those?
    General Grosso. Yes, ma'am, there is one in the Air Force 
that are represented.
    Ms. McSally. Yeah.
    Admiral Burke. Same for the Navy.
    Ms. McSally. Same with all of you?
    General Evans. Ma'am, not at this time.
    Ms. McSally. Not at this time. Okay. Are there any reports 
of Army--I think there are. Army individuals----
    General Evans. Yes, ma'am. I mentioned earlier----
    Ms. McSally. Yeah.
    General Evans [continuing]. There was a--was made aware of 
a Tumblr website where there is a multiservice investigative 
task force looking into that, but I am not serving on that 
particular task force.
    Ms. McSally. Okay. Great. And it is a fair question of are 
there millennials on your task force who actually are experts 
at this type of behavior and the use of social media. You may 
have seen The New York Times article talking about, you know, 
former marines that are actually chasing some of these guys 
down and doing it in a very swift way that is, you know, able 
do that at the speed of social media versus sometimes we work 
at the speed of bureaucracy; so are you reaching out to make 
sure we have millennials on these teams and people who kind of 
can understand the social media environment?
    General Brilakis. Ma'am, yes. Men, women, young, old, and 
to your earlier point, one of the discussions we had, we had a 
2\1/2\-hour meeting with the executive committee today. One of 
the discussions in there was about not pointing this back at 
our women, at our marines who could typically be blamed for the 
reaction of the organization. So we are very mindful of that, 
and we want to ensure that we don't--we don't create that.
    Because quite frankly, if you talk about respect and 
dignity, then we are talking about diversity and we are talking 
about religion and sexual preference, et cetera, so this was 
brought to the forefront based on the behavior of individuals 
in treating women.
    Ms. McSally. Right.
    General Brilakis. But it goes--if you are talking about 
respect and dignity, it is going to go broader than that, and 
we work with this.
    Ms. McSally. And as you know, even when we are talking 
about that, that is a warfighting feature, though, as you know 
that. It is not diversity for the sake of it, it is not social 
experimentation. It is we become a stronger fighting force. I 
know you all know this, but I think it is important because we 
sometimes--sometimes people think it is warfighting or 
diversity, and that gets characterized as a negative thing. It 
is about warfighting capability and having the best team. That 
comes with trust and respect and honor and all those things 
that you all know well. Any other comments from the other 
witnesses?
    General Grosso. Ma'am, I am not aware that we have 
millennials because you can imagine it was an Air Staff effort, 
but we do--as we do this review, we will certainly include them 
as we try to accomplish solutions to gaps we find.
    Ms. McSally. Is there also--and I have to choose my words 
wisely in this. If there is any training that is being 
considered related to policies, to make sure that your 
soldiers, sailors, airmen, and marines are also aware of when 
they post things of themselves in this environment, again, this 
is not blaming the victim, but this is when you post something 
of yourself that it can be used in ways that are harmful to you 
and to the unit and to provide that sort of increased, you 
know, situational awareness and just that awareness for some of 
this younger generation that maybe doesn't think about that at 
the time and they come to us with those habits.
    General Grosso. Ma'am, you have identified a gap that we 
have found that we need to help people understand. You give 
consent up when you post these, meaning it or not, so it is 
really what--we are calling it literacy, you know, social media 
literacy, just how do you know what happens with things that 
you put in the ethernet.
    Ms. McSally. Great. Thanks. Anybody else?
    Admiral Burke. Ma'am, for the Navy, it is--you know, this 
is just one new environment for harassment, bullying, all those 
things that have been going on in--frankly, in the past and in 
broad daylight. Now they are going on in, you know, more hidden 
places, so we are attacking it as an individual's character, so 
it is a leadership and courage issue for us, and we are 
attacking it from that angle.
    Teammates don't treat teammates like that, no bystanders, 
you have an obligation to take action when you see shipmates in 
need, and we are going after those elements of it. We do have a 
very diverse team working this and have taken a multi-aspect 
approach going forward.
    Ms. McSally. Great.
    Admiral Burke. And the products that we have made really do 
emphasize the--you know, when you post something, one, don't 
assume that because you posted it while you were in your 
civilian, you know, role that it--people won't assume you are 
in your military role and so on and so forth and it won't get 
forwarded.
    General Evans. And one of the things we have woven and 
integrated into the training at every level, to include a 
recent tri-signed letter sent out by the acting Secretary of 
the Army, Chief of Staff of the Army, and the Sergeant Major of 
the Army, and he also did a video last week of this is to 
think, type, post. Think about the communication you are about 
to send and who is going to review it; type a communication 
that conforms with Army values; and post a communication that 
demonstrates dignity and respect for both self and others.
    Ms. McSally. Okay. Thanks. I know I am well over my time 
but just to go back. Admiral Burke, on the bystander issue, I 
think it is critical. Just like the sexual assault, sexual 
harassment, you do have the perpetrators, but the vast majority 
of people are bystanders. They get that sheep mentality. Nobody 
wants to speak out, nobody wants to be looking different and 
taking on the wrath of others. That is where it is really going 
to be--result is going to be. Sorry. Thank you. I appreciate 
it. Mr. Chairman.
    Mr. Coffman. Ms. Speier.
    Ms. Speier. Just a couple of points of clarification. There 
is a very different expectation when you post something on your 
Facebook page. That means that many people are going to see it. 
But when you text an intimate photograph, an image of yourself 
to your lover as a private conversation that subsequently after 
you break up is then used in a form of revenge porn, that is 
different, and there is an expectation when you post and there 
is an expectation when you text, and I think that is very 
important to distinguish.
    General Brilakis, don't take offense at this. It is very 
important for you to hear this and for some of your colleagues 
who came and spoke to us at a briefing last week. I didn't 
mention it last week, but they used the same term, and it is 
inappropriate. The term you just used was ``sexual 
preference.'' It is not a sexual preference. It is a sexual 
orientation, and it would behoove all of us to use the term 
that really is reflective of what is a sexual orientation. It 
is not a preference that they are.
    General Brilakis. Very well, ma'am, I stand corrected, and 
you are correct.
    Ms. Speier. Thank you.
    Mr. Coffman. Thank you. Ms. McSally, you are now recognized 
for 5 minutes.
    Ms. McSally. Sorry. I wouldn't have gone so far over if I 
was going to get another round. I am actually good, Mr. 
Chairman. Thank you. I was following up on the bystander, which 
you guys all know. I think that is really critical. Thank you.
    Mr. Coffman. And just to inform the committee that we will 
be asking for briefing from all the services present, to 
include the Department of Defense, in 4 months to receive an 
update in terms of what actions you have taken between this 
hearing and 4 months. I wish to thank the witnesses for their 
testimony this afternoon. This has been a very--this has been 
very informative. There being no further business, the 
subcommittee stands adjourned.
    [Whereupon, at 5:29 p.m., the subcommittee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 21, 2017



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 21, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 21, 2017

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER

    General Brilakis. As has been the case, I expect each of the 
commanders involved in these cases to exercise their independent and 
unfettered disciplinary disposition authority in reaching their 
decisions. Authorities for the various disciplinary actions have 
involved, among others: violations of the UCMJ Article 92, (pursuant to 
Article 1168, U.S. Navy Regulations, and Marine Corps Order 1000.9A 
(Sexual Harassment)); Article 120c; Article 134; and, 18 U.S.C. 2261A 
(Stalking).
    In United States v. Quick, 74 M.J. 517, decided October 31, 2014, 
the Navy and Marine Corps Court of Criminal Appeals held that the 
specification under the charge for indecent viewing did not state an 
offense under Art. 120c, UCMJ, because the express proscription of the 
making or broadcasting of indecent visual recordings implied that the 
viewing of indecent visual recordings was not proscribed and that the 
specification did not allege that the appellant viewed the victim's 
private area but alleged that he viewed a visual recording of her 
private area.
    NDAA updates, year over year, continue impact the area of military 
justice, to include both substantive and procedural changes. For 
example, Article 120c, UCMJ--other sexual misconduct--is amended to 
correct mistaken indications that it applies to the nonconsensual 
broadcasting of an image of a private area where the image was 
initially created with the subject's consent.
    The National Defense Authorization Act for Fiscal Year 2018 has 
created a new punitive Article 117a, UCMJ, that expressly prohibits 
non-consensual distribution of intimate images. Additionally, the U.S. 
Navy Regulations of 1990 were modified on April 18, 2017 to include 
Article 1168 which prohibits the non-consensual distribution of 
intimate images by Marines and Sailors and is punishable under Art. 92, 
UCMJ. On May 9, 2017, the MARCORSEPMAN was amended to include 
processing for separation is mandatory following the first 
substantiated incident of sexual harassment involving a ``[v]iolation 
of Article 1168 of the U.S. Navy Regulations including, but not limited 
to, the distribution or broadcasting of an intimate image, without 
consent, if done for personal gain; or with the intent to humiliate, 
harm, harass, intimidate, threaten, or coerce the depicted person; or 
with reckless disregard as to whether the depicted person would be 
humiliated, harmed, intimidated, threatened, or coerced.''
    In general, Art. 134, UCMJ, makes punishable acts in three 
categories of offenses not specifically covered in any other article of 
the code--such offenses to include ``all disorders and neglects to the 
prejudice of good order and discipline in the armed forces, all conduct 
of a nature to bring discredit upon the armed forces, and crimes and 
offenses not capital, of which persons subject to this chapter may be 
guilty.'' Art. 133, UCMJ, applicable to officers, criminalizes an act 
or omission that, under the circumstances, constituted conduct 
unbecoming an officer and gentleman--i.e., ``action or behavior in an 
official capacity which, in dishonoring or disgracing the person as an 
officer, seriously compromises the officer's character as a gentleman, 
or action or behavior in an unofficial or private capacity which, in 
dishonoring or disgracing the officer personally, seriously compromises 
the person's standing as an officer.'' Art. 133 includes acts made 
punishable by any other Article. Whether or not the conduct described 
in the question above may be prosecuted under Arts. 133 and/or 134 
depends on the facts or circumstances of each case.   [See page 20.]
    General Grosso. Air Force commanders can and do use the Uniform 
Code of Military Justice (UCMJ) to hold Airmen accountable for failing 
to meet Air Force standards, including the standards for conduct on 
social media. In addition to holding Airmen accountable for misconduct 
committed on social media using Air Force Instruction 1-1 and Article 
92 of the UCMJ, Air Force commanders consider the facts and 
circumstances of the particular case, which may implicate other 
articles of the UCMJ and can result in punishing the underlying 
misconduct, regardless of the means or method used to commit it. This 
includes charging a violation of Article 120c of the UCMJ for the 
sexual misconduct of indecent viewing, visual recording, or 
broadcasting. In one such case, an Airman was convicted at a trial by 
general court-martial of sexually assaulting an individual, recording 
the naked victim, and distributing the recording. The accused was 
convicted of sexual assault under Article 120(b) and other sexual 
misconduct under Article 120c and sentenced to a dishonorable 
discharge, reduction to Airman Basic, seven years of confinement, and 
forfeiture of all pay and allowances. Demonstrating that Air Force 
commanders can and do use multiple tools to hold Airmen accountable, 
another case involved a male Staff Sergeant dancing with a female 
Airman First Class while she was topless. With the female Airman's 
knowledge, the male Airman video-recorded her dancing topless. The male 
Airman distributed the recording to her and her boyfriend. Without the 
female Airman's consent, the male Airman also distributed the recording 
to a third person. The male Airman was found to have been derelict in 
his duties for failing to adhere to Air Force Instruction 1-1 by 
dancing with the female Airman while she was topless and lying about 
the distribution of the recording to a third person. He was also found 
guilty of conduct prejudicial to good order and discipline for creating 
the recording and then disseminating it to a third person without the 
female Airman's consent. He received nonjudicial punishment of 
reduction from Staff Sergeant to Senior Airman, extra duty, and a 
reprimand.   [See page 19.]
    General Evans. The Army has used Article 120c, UCMJ, in punishing 
the social media misuse of photographs and video recordings both 
through courts-martial and nonjudicial punishment. In FY 2015, for 
example, the Army court-martialed a Soldier at Fort Hood under Article 
120c, UCMJ for indecent broadcasting of sexual images without the 
consent of the subject. The Soldier, who was also convicted of offenses 
under Articles 92 and 120, UCMJ, was sentenced to 30 months confinement 
and a BCD. In FY 2016, the Army court-martialed a Soldier at Fort 
Benning under Article 120c for taking pictures of another's private 
area without consent and broadcasting those photographs online without 
consent. The Soldier, who was also convicted of offenses under Articles 
120 and 128, UCMJ, was sentenced to reduction to E-1, confinement for 9 
months, and a bad conduct discharge (BCD). Another Soldier who faced 
charges for indecent photographing and indecent broadcasting without 
consent was given an other-than-honorable discharge pursuant to Army 
Regulation (AR) 635-200, Chapter 10 in FY 2016. In addition to these 
courts-martial, the Army has imposed nonjudicial punishment for the 
online misuse of photographs and visual recordings in violation of 
Article 120c, UCMJ. In FY 2015, three Soldiers received nonjudicial 
punishment for broadcasting online indecent photographs or visual 
recordings without the consent of the subject in violation of Article 
120c. In FY 2016, eight Soldiers received nonjudicial punishment for 
broadcasting online indecent photographs or visual recordings without 
the consent of the subject in violation of Article 120c.   [See page 
20.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 21, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. In your service branch, how many people have been 
punished for violating the social media policies? What were the nature 
of the violations, and to what extent were the perpetrators punished?
    Mr. Kurta. This question is best answered by the Military Services.
    Ms. Speier. What measures of effectiveness or metric have been 
established with respect to your social media policies?
    Mr. Kurta. This question is best answered by the Military Services.
    Ms. Speier. In your service branch, how many people have been 
punished for violating the social media policies? What were the nature 
of the violations, and to what extent were the perpetrators punished?
    General Brilakis. To date (since the report of misconduct involving 
members the Marines United Facebook group), there have been at least 
116 subjects, suspects, or persons of interest (hereinafter, 
collectively, ``subjects'') reported for alleged online social media 
misconduct involving 22 non-DOD civilians and 94 Marines as subjects. 
Of the 94 cases in which the Marine Corps maintained at least 
administrative jurisdiction, 68 cases have reached disposition and 26 
remain in a pending status. In terms of severity of action, there have 
been guilty findings at 5 special courts-martial and 1 summary court-
martial; 10 cases adjudicated via non-judicial punishment; 5 
administrative separations; 25 formal adverse administrative actions; 
and, in 22 cases, no formal administrative action. In each of these 
cases commanders have exercised their independent and unfettered 
disciplinary disposition authority in reaching their decisions. 
Authorities for the various disciplinary actions have involved, among 
others: violations of the UCMJ Article 92, (pursuant to Article 1168, 
U.S. Navy Regulations, and Marine Corps Order 1000.9A (Sexual 
Harassment)); Article 120c; Article 134; and, 18 U.S.C. 2261A 
(Stalking). [The investigation into the Marines United Facebook Group 
involved a review of more than 120,000 images from over 170 other 
websites. Investigators determined that while there were more than 
22,000 images with persons depicted who had a possible Department of 
Defense affiliation, there were approximately 7,867 images with persons 
depicted who had a possible Marine Corps affiliation. Employing 
technology to include facial recognition software, investigators 
determined that only 68 potential victims were identifiable of the 
7,867 images. Further, investigators confirmed 31 of the 68 potential 
victims, and only 8 confirmed victims were able to identify a subject. 
These subjects are factored into the 116 subjects reported for 
investigation and disposition.
    Ms. Speier. What measures of effectiveness or metric have been 
established with respect to your social media policies?
    General Brilakis. The CMC Task Force was established to address, in 
part, online social media misconduct includes and is assisted by the 
Social Media Awareness and Response Team (SMART) Cell. The SMART Cell 
is comprised of representatives from NCIS, Marine Corps CID, among 
other offices to coordinate the reporting of allegations of online 
social media misconduct from law enforcement to the proper disciplinary 
disposition authority and investigation agency for disposition. It is 
an enduring function that is expected to be incorporated into the 
Office of Personnel Studies and Oversight within M&RA.
    To date (since the report of misconduct involving members the 
Marines United Facebook group), there have been at least 116 subjects, 
suspects, or persons of interest (hereinafter, collectively, 
``subjects'') reported for alleged online social media misconduct 
involving 22 non-DOD civilians and 94 Marines as subjects. Of the 94 
cases in which the Marine Corps maintained at least administrative 
jurisdiction, 68 cases have reached disposition and 26 remain in a 
pending status. In terms of severity of action, there have been guilty 
findings at 5 special courts-martial and 1 summary court-martial; 10 
cases adjudicated via non-judicial punishment; 5 administrative 
separations; 25 formal adverse administrative actions; and, in 22 
cases, no formal administrative action. In each of these cases 
commanders have exercised their independent and unfettered disciplinary 
disposition authority in reaching their decisions.
    Ms. Speier. In your service branch, how many people have been 
punished for violating the social media policies? What were the nature 
of the violations, and to what extent were the perpetrators punished?
    General Grosso. Air Force commanders have a variety of different 
tools at their disposal to hold Airmen accountable for failing to meet 
Air Force standards, including the standards for conduct on social 
media; Airman can also be held accountable for using social media in 
violation of Air Force Instruction 1-1 as well as their commission of 
the underlying misconduct. As a result, the Air Force cannot provide a 
definitive number of all Airmen who have been held accountable for 
failing to meet the standards for conduct on social media. However, the 
Air Force can provide specific examples of cases that demonstrate Air 
Force commanders can and do hold Airmen accountable for failing to meet 
these standards. In one such case, an Airman sent a derogatory comment 
using Facebook messenger that was subsequently associated with the 
Airman's Facebook page. The Airman was found to have been derelict in 
his duties for failing to adhere to Air Force Instruction 1-1 on 
Facebook and lying about it. He received nonjudicial punishment of 
reduction from the grade of Staff Sergeant to the grade of Senior 
Airman, suspended forfeiture of pay, and a reprimand. Air Force 
standards for conduct on social media are encapsulated in Air Force 
Instruction 1-1, Air Force Standards. Issued in 2012 and updated in 
2014, Air Force Instruction 1-1 states Airmen ``must avoid offensive 
and/or inappropriate behavior on social networking platforms and 
through other forms of communication that could bring discredit upon 
the Air Force or you as a member of the Air Force, or that would be 
otherwise harmful to good order and discipline, respect for authority, 
unit cohesion, morale, mission accomplishment, or the trust and 
confidence the public has in the United States Air Force.'' Airmen are 
``personally responsible for what you say and post on social networking 
services and any other medium. Regardless of the method of 
communication used, Air Force standards must be observed at all times, 
both on and off-duty.'' Airmen who violate Air Force Instruction 1-1 
can be held accountable for willful or negligent dereliction of duty 
under Article 92 of the UCMJ. In addition to holding Airmen accountable 
for misconduct committed on social media under Article 92 of the UCMJ, 
Air Force commanders consider the facts and circumstances of the 
particular case; this may implicate other articles of the UCMJ and can 
result in punishment for the underlying misconduct, regardless of the 
means or method used to commit it. For example, pictures of a 
subordinate posted on Facebook by a superior may constitute cruelty and 
maltreatment under Article 93 of the UCMJ. Comments made via Twitter 
from one Airman to other Airmen may amount to indecent language under 
Article 134 of the UCMJ.
    Ms. Speier. What measures of effectiveness or metric have been 
established with respect to your social media policies?
    General Grosso. The Air Force has worked very diligently to build 
and strengthen Air Force values and our culture of dignity and respect. 
That said, Airmen are held to Air Force Standards, as established in 
Air Force Instruction 1-1. It states Airmen ``must avoid offensive and/
or inappropriate behavior on social networking platforms and through 
other forms of communication that could bring discredit upon the Air 
Force or you as a member of the Air Force, or that would be otherwise 
harmful to good order and discipline, respect for authority, unit 
cohesion, morale, mission accomplishment, or the trust and confidence 
the public has in the United States Air Force.'' Air Force commanders 
have a variety of tools at their disposal to hold Airmen accountable 
for failing to meet Air Force standards, including misconduct on social 
media. The Air Force does not track whether a failure to meet standards 
occurred on social media, in-person, or in some other forum. As we 
conduct our review of current policies and educational curriculum, we 
will also examine the use of metrics.
    Ms. Speier. In your service branch, how many people have been 
punished for violating the social media policies? What were the nature 
of the violations, and to what extent were the perpetrators punished?
    Admiral Burke. There is no centralized system of records or 
database that captures all allegations of misconduct of this nature, 
nor is there any system that captures the full range of judicial, non-
judicial and administrative actions that may have been exercised by 
individual commanders, commanding officers and officers in charge.
    Even for offenses that rise to the level of judicial actions, i.e., 
special and general courts-martial, our Case Management System is 
arranged by accused and article violated, and does not lend itself well 
to this question since social media policy violations may be 
adjudicated under different articles based on the nature of the 
offense. Information captured on individual offenses may simply be 
attributed to violation of a specific article, or articles, of the 
Uniform Code of Military Justice (UCMJ), without capturing the level of 
detail or data necessary to relate the punishment to social media 
misconduct, particularly given the number of UCMJ articles that could 
be deemed applicable on a case-by-case basis.
    Navy is currently conducting a review of the Case Management System 
for offenses related to social media policy violation under UCMJ 
Articles 133 (Conduct Unbecoming an Officer), 134 (General Article), 92 
(Failure to obey order or regulation), and 93 (Cruelty and 
maltreatment). We expect the analysis to be complete in the next 
several weeks.
    Ms. Speier. What measures of effectiveness or metric have been 
established with respect to your social media policies?
    Admiral Burke. Social media is one forum by which individuals haze, 
discriminate or sexually harass others. These elements of misconduct 
are detractors from our positive Navy culture which we routinely 
measure. Thus, metrics about our social media policy are incorporated 
in general measures of effectiveness of culture or ``Health of the 
Force.'' These metrics include:
    <bullet>  sexual harassment reports
    <bullet>  discrimination reports
    <bullet>  sexual assault reports
    <bullet>  hazing reports
    <bullet>  alcohol abuse incident reports
    <bullet>  drug abuse incident reports
    <bullet>  domestic abuse and violence reports
    <bullet>  suicide and suicide related behavior reports
    <bullet>  command climate surveys
    <bullet>  Sailor financial readiness metrics
    For fiscal year 2016, Navy measured those incidences of sexual 
harassment, discrimination, hazing, and bullying that involved social 
media or electronic devices.

                                FY16 Incidents Social Media or Electronic Device
----------------------------------------------------------------------------------------------------------------
       Incident             Reports       Substantiated       Unsubstantiated       Pending     Other Misconduct
----------------------------------------------------------------------------------------------------------------
Hazing                   5              2                  2                     0              1
----------------------------------------------------------------------------------------------------------------
Discrimination           2              0                  2                     0              0
----------------------------------------------------------------------------------------------------------------
Sexual Harassment       11              5                  2                     4              0
----------------------------------------------------------------------------------------------------------------
Bullying                 0              0                  0                     0              0
----------------------------------------------------------------------------------------------------------------


    Ms. Speier. In your service branch, how many people have been 
punished for violating the social media policies? What were the nature 
of the violations, and to what extent were the perpetrators punished?
    General Evans. The Army has punished Soldiers for the misuse of 
social media to include the misuse of intimate photographs and video 
recordings. In FY 2015, for example, a Soldier was court-martialed for 
an indecent broadcasting violation of Article 120c, UCMJ (Article 120c, 
UCMJ encompasses multiple offenses, including: (1) indecent viewing, 
visual recording, or broadcasting; (2) forcible pandering; and (3) 
indecent exposure). He was convicted of indecent broadcasting, as well 
as disobeying a lawful order and sexual assault. He was sentenced to be 
confined for 30 months and discharged with a bad conduct discharge 
(BCD). Another Soldier was court-martialed under Article 133, UCMJ 
(conduct unbecoming an officer) for online misconduct including sending 
electronic messages of a sexual nature, posting comments of a sexual 
nature to a website, and posting photographs to a website. He was 
sentenced to be confined for 2 months and to be dismissed. 
Additionally, in FY 15 three Soldiers received nonjudicial punishment 
for Article 120c, UCMJ indecent broadcasting offenses. Their 
punishments included reductions in grade, forfeitures, extra duty, and 
restrictions. In FY 2016, a Soldier was court-martialed for indecent 
broadcasting in violation of Article 120c. He was convicted of the 
indecent broadcasting offense, as well as indecent visual recording, 
abusive sexual contact, assault, and assault consummated by battery. He 
was sentenced to be reduced to the grade of E-1, to be confined for 9 
months, and to be discharged with a BCD. A second Soldier charged with 
an Article 120c indecent broadcasting offense was given an other-than-
honorable discharge in lieu of a court-martial pursuant to AR 635-200, 
Chapter 10. Eight Soldiers received nonjudicial punishment for Article 
120c indecent broadcasting offenses. Their punishments included 
reductions in grade, forfeitures, extra duty, restrictions, and 
reprimands.
    Ms. Speier. What measures of effectiveness or metric have been 
established with respect to your social media policies?
    General Evans. This is an emergent issue but the Army has directed 
the Assistant Secretary of the Army (Manpower and Reserve Affairs); 
Deputy Chief of Staff, G-1; Inspector General; The Judge Advocate 
General; and the Provost Marshal General to initiate updates to 
existing systems to track online-related incidents. These systems 
currently track misconduct related to equal opportunity, equal 
employment opportunity, SHARP, Inspector General Investigations, UCMJ 
disposition, and law enforcement investigations without capturing the 
manner in which the misconduct is perpetrated. We also believe that 
recent updates to Department of Defense surveys to query participants 
about misuse of social media will provide us additional insight.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. BACON
    Mr. Bacon. Do you believe that the UCMJ today gives commanders the 
necessary legal authority to identify and hold members accountable for 
social media misconduct, both on and off duty, to include the non-
consensual sharing of photos with third parties which may had 
previously been shared consensually (i.e. revenge porn cases)?
    Mr. Kurta. In consultation with DOD Office of General Counsel, I 
believe the UCMJ currently gives commanders sufficient legal authority 
to identify and hold offenders accountable. However, as the Navy/USMC 
investigations go forward and we find that we require additional 
authorities, we will immediately consult with this and all appropriate 
Committees.
    Mr. Bacon. What service policies, procedures, programs and 
resources exist to identify, protect and support victims of social 
media misconduct?
    Mr. Kurta. This question is best answered by the Military Services.
    Mr. Bacon. Do you believe that the UCMJ today gives commanders the 
necessary legal authority to identify and hold members accountable for 
social media misconduct, both on and off duty, to include the non-
consensual sharing of photos with third parties which may had 
previously been shared consensually (i.e. revenge porn cases)?
    General Brilakis. The Commandant of the Marine Corps (CMC) takes 
seriously and understands the intolerable and corrosive effects that 
online social media misconduct has on our institution. He is committed 
to doing what is necessary to change the negative elements of within 
the organization that have failed to appreciate the core values of 
dignity and respect and have ultimately facilitated this problem.
    On 14 March, CMC released ALMAR 008/17 which provides guidance for 
personnel who, in their personal capacity, desire to make unofficial 
posts on the internet regarding Marine Corps-related topics and 
guidance for Marines concerning unofficial online activity that has an 
adverse effect on good order and discipline within, or brings discredit 
upon, the armed forces. Additionally, CMC published a White Letter on 
21 March, ``Social Media Guidance-Mandatory Counseling Requirement,'' 
which mandated, within 30 days, every active duty and reserve Marine, 
officer and enlisted, receive a formal counseling confirming that they 
read and understand the updated social media guidance outlined in a 
message released to all Marines on 14 March. Per Article 1137 of the 
U.S. Navy Regulations, ``[p]ersons in the naval service shall report as 
soon as possible to superior authority all offenses under the [UCMJ] 
which come under their observation, except when such persons are 
themselves already criminally involved in such offenses at the time 
such offenses first come under their observation.''
    The Acting Secretary of the Navy signed ALNAV 021-17 on 18 April, 
which changed the U.S. Navy Regulations to include Article 1168, 
prohibiting the non-consensual distribution of intimate images. This 
Article makes punishable under the UCMJ conduct that might not 
otherwise be criminalized under other portions of the Code. In 
addition, on 9 May, CMC issued MARADMIN 223/17, modifying the Marine 
Corps Separations and Retirement Manual to make administrative 
separation processing mandatory in the cases of Marines determined to 
have wrongfully distributed an intimate image of another person. These 
substantial changes are being undertaken in addition to the many other 
legal tools available to implement discipline under the UCMJ in such 
cases. Furthermore, the National Defense Authorization Act for Fiscal 
Year 2018 has created a new punitive Article 117a, UCMJ, that expressly 
prohibits non-consensual distribution of intimate images.
    Additionally, authorities for the various disciplinary actions may 
involve, among others: violations of the UCMJ Article 92, (pursuant to 
Marine Corps Order 1000.9A (Sexual Harassment)); Article 120c; Article 
133, Article 134; and, 18 U.S.C. 2261A (Stalking). Whether or not the 
conduct described in the question above may be prosecuted under one or 
more of the above-cited authorities depends on the facts or 
circumstances of each case.
    As has been the case, I expect each of the commanders involved in 
these cases to exercise their independent and unfettered disciplinary 
disposition authority in reaching their decisions.
    Mr. Bacon. What service policies, procedures, programs and 
resources exist to identify, protect and support victims of social 
media misconduct?
    General Brilakis. The Marine Corps is actively addressing online 
misconduct through an Interim Task Force. The purpose of the Task Force 
is to examine conditions that enable discrimination, harassment, and 
disrespect while seeking innovative and holistic approaches to address 
destructive behavior. In addition, the Personnel Studies and Oversight 
Office has been established to address and implement long term 
solutions to online misconduct and related cultural behaviors. This 
year the Marine Corps published an update to their social media conduct 
policy, specifically addressing unofficial online activity. The policy 
outlines how inappropriate behavior impacts morale and core values, as 
well as how misconduct may be punishable under the UCMJ. Further, the 
Commandant of the Marine Corps mandated all Marines sign a Page 11 
entry for their individual record, acknowledging they will adhere to 
this guidance. A Leader's Handbook was released, providing tools for 
leaders to educate Marines on how to discuss and combat social media 
misconduct. In addition, a Social Media Complaint Process for reporting 
and tracking was established, to include routing reports to NCIS. 
Victims are afforded reporting options and access to supportive 
services, to include receiving support from the Victims' Legal Counsel, 
Victims' Advocates, and Chaplains. A White Letter was issued directing 
immediate action from leaders to support Marines, ensuring all remain 
ready to provide immediate crisis intervention, information and 
referrals as needed. The Marine Corps has also published a webpage 
tailored specifically to support victims of social media misconduct. 
The webpage provides various resource opportunities available and 
answers frequently asked questions for those seeking information. 
(http://www.usmc-mccs.org/socialmediaFAQs/).
    Mr. Bacon. Do you believe that the UCMJ today gives commanders the 
necessary legal authority to identify and hold members accountable for 
social media misconduct, both on and off duty, to include the non-
consensual sharing of photos with third parties which may had 
previously been shared consensually (i.e. revenge porn cases)?
    General Grosso. Air Force standards for conduct on social media are 
encapsulated in Air Force Instruction 1-1, Air Force Standards. Issued 
in 2012 and updated in 2014, Air Force Instruction 1-1 states Airmen 
``must avoid offensive and/or inappropriate behavior on social 
networking platforms and through other forms of communication that 
could bring discredit upon the Air Force or you as a member of the Air 
Force, or that would be otherwise harmful to good order and discipline, 
respect for authority, unit cohesion, morale, mission accomplishment, 
or the trust and confidence the public has in the United States Air 
Force.'' Airmen are ``personally responsible for what you say and post 
on social networking services and any other medium. Regardless of the 
method of communication used, Air Force standards must be observed at 
all times, both on and off-duty.'' Airmen who violate Air Force 
Instruction 1-1 can be held accountable for willful or negligent 
dereliction of duty under Article 92 of the Uniform Code of Military 
Justice. In addition to holding Airmen accountable for misconduct 
committed on social media under Article 92 of the UCMJ, Air Force 
commanders consider the facts and circumstances of the particular case, 
which may implicate other articles of the UCMJ. For example, pictures 
of a subordinate posted on social media by a superior may constitute 
cruelty and maltreatment under Article 93 of the UCMJ. Comments made on 
social media from one Airman to another Airman may amount to indecent 
language under Article 134 of the UCMJ. In addition, misconduct on 
social media may be conduct unbecoming an officer and gentleman under 
Article 133 of the UCMJ or conduct that is prejudicial to good order 
and discipline or is of a nature to bring discredit upon the armed 
forces under Article 134 of the UCMJ. Our judge advocates are working 
in conjunction with the other Services and the Department of Defense to 
review the UCMJ and develop potential modifications thereto that would 
allow commanders to more effectively hold Airmen accountable for 
misconduct on social media, including the nonconsensual distribution of 
certain images.
    Mr. Bacon. What service policies, procedures, programs and 
resources exist to identify, protect and support victims of social 
media misconduct?
    General Grosso. The Air Force provides a multitude of resources to 
assist victims of crimes. First, Special Victims' Counsel 
representation is available for victims of a 120c offense. Air Force 
Special Victims' Counsel provide comprehensive representational legal 
assistance to assist victims through myriad issues including assertion 
of privacy rights, requests for protective orders, and representation 
throughout the military justice process, including when cases are 
disposed of through an administrative process. Requests by victims of 
other social media misconduct would be considered on a case-by-case 
basis, taking into account factors such as whether the conduct was 
meant to retaliate, ostracize or humiliate the victim and whether the 
accused was subject to the Uniform Code of Military Justice. Chapter 7 
of Air Force Instruction 51-201, Administration of Military Justice, 
outlines support given to victims and witnesses of all crime, including 
victims and witnesses of social media misconduct, through the Victim 
and Witness Assistance Program (VWAP). This instruction implements the 
Victim and Witness Protection Act of 1982 (42 U.S.C. Sec. Sec. 10601-
10605), the Crime Victims' Rights Act (18 U.S.C. Sec. 3771), DOD 
Directive 1030.01, Victim and Witness Assistance, and DOD Instruction 
1030.2, Victim and Witness Assistance Procedures. The goal of the VWAP 
is (1) to mitigate the physical, psychological, and financial hardships 
suffered by victims and witnesses of offenses investigated by US Air 
Force authorities, (2) foster cooperation of victims and witnesses 
within the military criminal justice system, and (3) ensure best 
efforts are made to accord to victims of crime certain enumerated 
rights. Once an investigation is initiated, a VWAP victim liaison is 
assigned to assist the victim with navigating the military justice 
system, provide the victim case information, help the victim utilize 
military and civilian community resources, and facilitate eligible 
victims' access to legal assistance, or attorney consultation for 
personal legal issues at no cost to the client. Finally, chaplains and 
medical and mental health providers are also available to assist 
victims with their spiritual, medical or psychological needs.
    Mr. Bacon. Do you believe that the UCMJ today gives commanders the 
necessary legal authority to identify and hold members accountable for 
social media misconduct, both on and off duty, to include the non-
consensual sharing of photos with third parties which may had 
previously been shared consensually (i.e. revenge porn cases)?
    Admiral Burke. We assess that the UCMJ provides commanders the 
necessary legal authorities to identify offenders and hold them 
appropriately accountable for social media and cyber misconduct. Each 
case is unique and fact-specific, thus analysis requires consideration 
of the behavior, the intent, and its effect. The UCMJ provides a robust 
framework for addressing a wide-range of these issues, and in some 
cases, authorities beyond those available to civilian authorities. 
Below are some examples of articles of the UCMJ which could be used to 
address misconduct based on its intent or effect, regardless of the 
location or medium used. Such examples include:
    Article 92 prohibits a violation of an order or regulation. A 
service member could be found in violation of Article 92 and 
disciplined for violation of policies on hazing, retaliation, 
ostracism, maltreatment, sexual harassment, fraternization, and misuse 
of government resources. The article also prohibits dereliction of 
duty, which could apply in the absence of a direct order if the 
behavior falls below the standards of service customs of naval 
personnel.
    Article 93 prohibits the cruelty and maltreatment of another 
service member. This article could be used to hold service members 
accountable in alleged cased of stalking.
    Article 133 prohibits conduct unbecoming for officers or 
midshipmen. This could afford broad authority to allow application for 
such violations as communicating a threat, obstructing justice, 
indecent language, as well as other conduct prejudicial to good order 
and discipline or that would bring discredit upon the United States 
Navy, such as nonconsensual publishing of private/intimate images. This 
article could also potentially allow for assimilating state or federal 
statutes that prohibit bullying or cyber-bullying.
    Although we do not perceive gaps in our authorities, we are 
continuing to assess all legal and administrative tools at our disposal 
to address this problem. Where we determine internal changes are 
necessary, we are committed to making them. If legislative change is 
needed, we will come forward and work with Congress to enhance our 
ability to prevent and respond to this type of misconduct.
    Mr. Bacon. What service policies, procedures, programs and 
resources exist to identify, protect and support victims of social 
media misconduct?
    Admiral Burke. Navy provides support via a 24-hour, 7-days per week 
response capability ensuring victim support, worldwide reporting 
procedures, and appropriate accountability. Sexual Assault Response 
Coordinators, Victim Advocates, Mental Health Providers, Medical 
Forensic Examiners, Legal and Chaplain Services all provide a 
comprehensive response of professionalism and respect while preserving 
Navy mission readiness.
    More than responding to a specific instance of misconduct, the 
recent ``Marines United'' incident revealed the need to use multiple 
methods in a campaign with our service members to ensure our service 
policies about appropriate behavior, character, and culture are 
understood. Navy's social media policies mirror our general policy, in 
that any form of harassment, discrimination, or hazing, on-line or 
otherwise, is not tolerated, and is inconsistent with our core values 
of Honor, Courage, and Commitment. Our policy provides commanders with 
mechanisms to administer judicial or non-judicial punishment as 
appropriate. Behaviors that rise to the level of sexual harassment, 
whether conducted person-to-person, online, or by any other method, are 
covered under this policy. Following the discovery of the ``Marines 
United'' website, Navy stood up a Senior Leader Working Group to attack 
this issue and get to the root. The Chief of Naval Operations charged 
all commanders to talk to their people about what respect for teammates 
looks like--at work, at home and online. He instructed commanders to 
make it absolutely clear that individuals who do not and cannot live up 
to our professional standards in competence and character are not 
welcome in our Navy. We are talking about this issue and future 
character development in multiple forums--online, via press release, on 
social media--to reach our people on every level. We developed several 
training products to include Social Media/On-line Conduct Guides for 
Sailors, Command Triads, Public Affairs Officers, and Ombudsmen that 
plainly explain our policy and expectations of Sailors. Two key 
examples of face-to-face training we are giving all Sailors include:
    <bullet>  Chart the Course launched in 2016 continued our efforts 
to combat destructive behaviors across the fleet while reinforcing and 
building upon our Navy Core Values and Navy Ethos. It blends scenario-
based videos with facilitator-led discussion addressing the idea that 
all hands must take ownership of enhancing a positive and professional 
climate within their commands and work environment.
    <bullet>  Full Speed Ahead blends scenario-based videos with 
facilitator-led discussions with a unique emphasis on the critical role 
of mid-level leaders in addressing and preventing destructive behaviors 
and their associated effects on individuals, work centers (micro-
climates), and commands.
    We are implementing our Leader Development Framework, part of 
Navy's Design for Maintaining Maritime Superiority, which outlines how 
Navy will develop leaders who demonstrate both operational excellence 
and strong character. Further, we are reviewing our online policies, 
guides and training for Sailors to determine how we might improve upon 
them. We want to continuously refine our Sailors' tool kits for the 
ever-changing online environment.
    Mr. Bacon. Do you believe that the UCMJ today gives commanders the 
necessary legal authority to identify and hold members accountable for 
social media misconduct, both on and off duty, to include the non-
consensual sharing of photos with third parties which may had 
previously been shared consensually (i.e. revenge porn cases)?
    General Evans. There are a wide variety of tools available to 
commanders to combat social media/online misconduct, whether the 
Soldier is on or off duty. While there are administrative options, when 
it comes to punitive disciplinary options, charging decisions depend 
upon many factors. Currently Army Regulation (AR) 600-20, para. 4-19a. 
has specific language that addresses and criminalizes, through Article 
92 of the Uniform Code of Military Justice (UCMJ), ``hazing, bullying, 
and other behaviors that undermine dignity and respect.'' These 
provisions reference ``social media'' (for hazing) and ``electronic 
media'' for bullying. So use of that punitive provision is possible. 
Furthermore, transmitting over social media an image made without the 
consent of the victim is an offense under Article 120(c)(3), UCMJ. 
Additionally, transmitting, receiving, or possessing such images made 
either consensually or not, could be criminal under Article 133, UCMJ 
(conduct unbecoming an officer and a gentleman) for officers, or under 
Article 134, UCMJ (conduct prejudicial to good order and discipline or 
service discrediting) for Soldiers and servicemembers generally. There 
are additional federal laws that could be charged as well, through 
assimilation under article 134, depending upon the crime. The federal 
crime of cyberstalking, for example, prohibits a person with an intent 
to harass or intimidate someone from using a computer that could 
reasonably be expected to cause emotional distress. Other federal laws 
prohibit accessing a computer without one's consent, or the 
transmission of obscene matters. Of course, the Army is prepared and 
willing to assist in providing technical advice regarding social media 
legislation if requested.
    Mr. Bacon. What service policies, procedures, programs and 
resources exist to identify, protect and support victims of social 
media misconduct?
    General Evans. Army policy prohibits online misconduct and the 
mistreatment of persons. Army policy, which is punitive, makes it clear 
that such misconduct is prohibited at all times and places, including 
when perpetrated through virtual or electronic media. Members of the 
Army team experiencing or witnessing online misconduct should promptly 
report matters to their chain of command or supervisor. Alternative 
avenues for reporting and acquiring information or support include: 
family support services, Equal Opportunity professionals, Equal 
Employment Opportunity (EEO) offices, the Inspector General (IG), law 
enforcement, and the Army SHARP professionals. As appropriate, those 
agencies refer complaints to the Commander, the IG, and law 
enforcement. Victims of sexually related online misconduct may be 
eligible for advocacy services from SHARP/EO professionals, including 
referral to mental health services or legal assistance.

                                  [all]





</pre></body></html>
